 Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




NATIONAL GOVERNMENT SERVICES,
      INC., UNDERSTATED
    ITS MEDICARE SEGMENT
        PENSION ASSETS
     AS OF JANUARY 1, 2010



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov




                                                 Gloria L. Jarmon
                                              Deputy Inspector General

                                                     October 2013
                                                     A-07-13-00408
                           Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.


Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations

The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                at https://oig.hhs.gov/

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 National Government Services, Inc., a Medicare contractor, understated its Medicare
 segment pension assets by approximately $1.2 million as of January 1, 2010.


WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) reimburses a portion of the annual
contributions that Medicare contractors make to their pension plans. These contributions are
allowable Medicare costs subject to the criteria set forth in the Federal Acquisition Regulation,
Cost Accounting Standards (CAS), and Medicare contracts. The Medicare contracts require
contractors to separately account for Medicare segment pension plan assets and update them in
accordance with CAS 413. In turn, CAS 413 requires these contractors to update the pension
assets with contributions, permitted unfunded accruals, income, benefit payments, participant
transfers, and administrative expenses. These assets are calculated by the contractors’ actuarial
consulting firms and are usually included as CAS exhibits in the contractors’ pension plan
actuarial valuation reports. The Medicare segment pension assets are integral to calculating the
allowable Medicare pension costs.

CMS incorporated pension segmentation requirements into Medicare contracts beginning with
fiscal year 1988. Previous Office of Inspector General reviews found that Medicare contractors
did not always correctly identify and update the segmented pension assets. Specifically, our
prior pension segmentation audit of Anthem Insurance Companies, Inc. (Anthem)
(A-07-04-00181), found that Anthem, which later became WellPoint, Inc. (WellPoint), did not
correctly identify and update the Medicare segment pension assets for its AdminaStar Federal,
Inc. (AdminaStar), and Anthem Health Plans of Maine, Inc. (Anthem Maine), segments, which
were themselves later consolidated into National Government Services, Inc. (NGS).

The objectives of this review were to determine whether NGS complied with Federal
requirements and the Medicare contracts’ pension segmentation requirements when
(1) implementing the prior audit recommendation to decrease the Medicare segment pension
assets as of January 1, 2003, and (2) updating the Medicare segment’s pension assets with
contributions, permitted unfunded accruals, income, benefit payments, participant transfers, and
administrative expenses in its CAS exhibits from January 1, 2003, to January 1, 2010.

BACKGROUND

NGS (formerly AdminaStar), a subsidiary of WellPoint, administered Medicare Parts A and B
and Durable Medical Equipment operations under cost reimbursement contracts with CMS.

On November 30, 2004, Anthem merged with WellPoint Health Networks, Inc., and at that time,
Anthem changed its name to WellPoint. On January 1, 2006, the Anthem Cash Balance Pension
Plan was renamed the WellPoint Cash Balance Pension Plan. On June 30, 2006, WellPoint
Health Networks, Inc., Pension Accumulation Plan assets merged into the WellPoint Cash
Balance Pension Plan, which included the Blue Cross Blue Shield of Georgia (BCBSGA)

National Government Services, Inc., Pension Segmentation (A-07-13-00408)                            i
Medicare segment. BCBSGA was maintained separately from other Medicare operations. Also,
effective November 17, 2006, WellPoint consolidated its Government contracting segments into
one segment, AdminaStar, which included the following Government contracting segments:
AdminaStar; Anthem Maine; Anthem Health Plans of New Hampshire, Inc.; United Government
Services, LLC; and WellChoice, Inc. (formerly Empire), Medicare segments. As of that same
date, AdminaStar changed its corporate name to NGS. Throughout this report, we will associate
the term NGS with our findings and recommendations.

We performed a prior pension segmentation audit of Anthem (A-07-04-00181, issued
October 18, 2005), which updated the NGS Medicare segment pension assets as of January 1,
2003. We recommended that Anthem decrease its NGS Medicare segment pension assets by
$440,294 and, as a result, recognize $21,594,429 as the Medicare segment pension assets as of
January 1, 2003, in its CAS exhibits.

WHAT WE FOUND

NGS implemented the prior audit recommendation to recognize $21,594,429 as Medicare
segment pension assets as of January 1, 2003, in its CAS exhibits. Regarding our second
objective, NGS identified Medicare segment pension assets of $28,382,567 as of January 1,
2010; however, we determined that NGS’s Medicare segment pension assets were $29,542,575.
Therefore, NGS’s CAS calculations understated its Medicare segment pension assets by
$1,160,008. NGS understated the Medicare segment pension assets because it did not have
controls to ensure that it calculated those assets in accordance with Federal requirements and the
pension segmentation language of its Medicare contracts when updating the Medicare segment
pension assets from January 1, 2003, to January 1, 2010.

WHAT WE RECOMMEND

We recommend that NGS:

    •    increase the Medicare segment pension assets as of January 1, 2010, by $1,160,008 and
         recognize $29,542,575 as the Medicare segment pension assets and

    •    establish controls to ensure compliance with Federal regulations and the Medicare
         contracts’ pension segmentation requirements when allocating contributions and
         transferred prepayment credits, benefit payments, participant transfers, and investment
         earnings and expenses.

AUDITEE COMMENTS

In written comments on our draft report, NGS concurred with our findings and recommendations
and said that it would make the appropriate adjustments to the Medicare segment pension assets
as of January 1, 2010. NGS also said that it would evaluate its current procedures to ensure
compliance with Federal regulations.




National Government Services, Inc., Pension Segmentation (A-07-13-00408)                           ii
                                                    TABLE OF CONTENTS


INTRODUCTION ................................................................................................................... 1

           Why We Did This Review ........................................................................................... 1

           Objectives .................................................................................................................... 1

           Background .................................................................................................................. 1

           How We Conducted This Review................................................................................ 2

FINDINGS ............................................................................................................................... 2

           National Government Services, Inc., Implemented Our
            Prior Audit Recommendation ................................................................................... 3

           Anthem Health Plans of Maine, Inc., Asset Variance ................................................. 3

           Anthem Health Plans of New Hampshire, Inc., Asset Variance ................................. 4

           Update of Medicare Segment Pension Assets ............................................................. 4
                 Contributions and Transferred Prepayment Credits Understated .................... 4
                 Net Transfers Understated ............................................................................... 4
                 Benefit Payments Understated ......................................................................... 5
                 Earnings, Net Expenses Understated ............................................................... 5

RECOMMENDATIONS ......................................................................................................... 5

AUDITEE COMMENTS......................................................................................................... 5

APPENDIXES

    A: Audit Scope and Methodology .................................................................................... 6

    B: Statement of Market Value of Pension Assets
       for the WellPoint Cash Balance Pension Plan
       for the Period January 1, 2003, to January 1, 2010...................................................... 8

    C: Federal Requirements Related to
       Pension Segmentation ................................................................................................ 12

    D: Auditee Comments ..................................................................................................... 13




National Government Services, Inc., Pension Segmentation (A-07-13-00408)                                                                       iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) reimburses a portion of the annual
contributions that Medicare contractors make to their pension plans. These contributions are
allowable Medicare costs subject to the criteria set forth in the Federal Acquisition Regulation
(FAR), Cost Accounting Standards (CAS), and Medicare contracts. The Medicare contracts
require contractors to separately account for Medicare segment pension plan assets and update
them in accordance with CAS 413. In turn, CAS 413 requires these contractors to update the
pension assets with contributions, permitted unfunded accruals, income, benefit payments,
participant transfers, and administrative expenses. These assets are calculated by the contractors’
actuarial consulting firms and are usually included as CAS exhibits in the contractors’ pension
plan actuarial valuation reports. The Medicare segment pension assets are integral to calculating
the allowable Medicare pension costs.

CMS incorporated pension segmentation requirements into Medicare contracts beginning with
fiscal year 1988. Previous Office of Inspector General reviews found that Medicare contractors
did not always correctly identify and update the segmented pension assets. Specifically, our
prior pension segmentation audit of Anthem Insurance Companies, Inc. (Anthem)
(A-07-04-00181), found that Anthem, which later became WellPoint, Inc. (WellPoint), did not
correctly identify and update the Medicare segment pension assets for its AdminaStar Federal,
Inc. (AdminaStar), and Anthem Health Plans of Maine, Inc. (Anthem Maine), segments, which
were themselves later consolidated into National Government Services, Inc. (NGS).

OBJECTIVES

Our objectives were to determine whether NGS complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when (1) implementing the prior audit
recommendation to decrease the Medicare segment pension assets as of January 1, 2003, and
(2) updating the Medicare segment’s pension assets with contributions, permitted unfunded
accruals, income, benefit payments, participant transfers, and administrative expenses in its CAS
exhibits from January 1, 2003, to January 1, 2010.

BACKGROUND

NGS (formerly AdminaStar), a subsidiary of WellPoint, administered Medicare Parts A and B
and Durable Medical Equipment operations under cost reimbursement contracts with CMS.

On November 30, 2004, Anthem merged with WellPoint Health Networks, Inc., and at that time,
Anthem changed its name to WellPoint. On January 1, 2006, the Anthem Cash Balance Pension
Plan was renamed the WellPoint Cash Balance Pension Plan. On June 30, 2006, WellPoint
Health Networks, Inc., Pension Accumulation Plan assets merged into the WellPoint Cash
Balance Pension Plan, which included the Blue Cross Blue Shield of Georgia (BCBSGA)
Medicare segment. BCBSGA was maintained separately from other Medicare operations. Also,
effective November 17, 2006, WellPoint consolidated its Government contracting segments into

National Government Services, Inc., Pension Segmentation (A-07-13-00408)                         1
one segment, AdminaStar, which included the following Government contracting segments:
AdminaStar; Anthem Maine; Anthem Health Plans of New Hampshire, Inc. (Anthem New
Hampshire); United Government Services, LLC (UGS); 1 and WellChoice, Inc. (formerly
Empire), Medicare segments. As of that same date, AdminaStar changed its corporate name to
NGS. Throughout this report, we will associate the term NGS with our findings and
recommendations.

We performed a prior pension segmentation audit of Anthem (A-07-04-00181, issued
October 18, 2005), which updated the NGS Medicare segment pension assets as of January 1,
2003. We recommended that Anthem decrease its NGS Medicare segment pension assets by
$440,294 and, as a result, recognize $21,594,429 as the Medicare segment pension assets as of
January 1, 2003, in its CAS exhibits.

HOW WE CONDUCTED THIS REVIEW

We reviewed NGS’s implementation of the prior audit recommendation; identification of its
Medicare segment; and update of the Medicare segment assets with contributions, permitted
unfunded accruals, income, benefit payments, participant transfers, and administrative expenses
in its CAS exhibits from January 1, 2003, to January 1, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                                FINDINGS

NGS implemented the prior audit recommendation to recognize $21,594,429 as Medicare
segment pension assets as of January 1, 2003, in its CAS exhibits. Regarding our second
objective, NGS identified Medicare segment pension assets of $28,382,567 as of January 1,
2010; however, we determined that NGS’s Medicare segment pension assets were $29,542,575.
Therefore, NGS’s CAS calculations understated its Medicare segment pension assets by
$1,160,008. NGS understated the Medicare segment pension assets because it did not have
controls to ensure that it calculated those assets in accordance with Federal requirements and the
pension segmentation language of its Medicare contracts when updating the Medicare segment
pension assets from January 1, 2003, to January 1, 2010.



1
 UGS was also consolidated under the NGS Medicare segment; however, UGS participated in its own qualified
defined benefit pension plan. In addition, the UGS pension costs were kept separate from the WellPoint Cash
Balance Pension Plan until fiscal year 2007. We are separately reviewing the UGS Medicare segment pension
assets and pension costs claimed.


National Government Services, Inc., Pension Segmentation (A-07-13-00408)                                      2
Appendix B presents details of the WellPoint Cash Balance Pension Plan assets from
January 1, 2003, to January 1, 2010, as determined during our audit. The table below
summarizes the audit adjustments required to update NGS’s Medicare segment pension assets in
accordance with Federal requirements and the terms of its Medicare contract.

                             Table: Summary of Audit Adjustments
                                                   Per Audit     Per NGS                           Difference
    Prior audit recommendation                    $21,594,429 $21,594,429                                  $0

    Anthem Maine Medicare segment asset variance                  3,988,364         4,472,179        (483,815)
    as of January 1, 2006
    Anthem New Hampshire Medicare segment asset                     301,081           276,718           24,363
    variance as of January 1, 2006

    Update of Medicare segment assets
     Contributions and                                          23,474,574         22,311,037       1,163,537
     transferred prepayment credits
     Net transfers out                                        (30,493,042)       (30,096,775)       (396,267)
     Benefit payments                                         (36,178,763)       (36,146,549)        (32,214)
     Earnings, net expenses                                     11,603,796         10,719,392         884,404
    Understatement of Medicare segment assets                                                      $1,160,008

NATIONAL GOVERNMENT SERVICES, INC., IMPLEMENTED OUR
PRIOR AUDIT RECOMMENDATION

NGS implemented our prior recommendation to decrease Medicare segment pension assets by
$440,294 and, as a result, recognize $21,594,429 of Medicare segment pension assets as of
January 1, 2003, in its CAS exhibits.

ANTHEM HEALTH PLANS OF MAINE, INC., ASSET VARIANCE

We conducted a separate review of the Anthem Maine Medicare segment (A-07-13-00404),
which updated the Anthem Maine Medicare segment pension assets as of January 1, 2006 (the
date on which the Anthem Maine Medicare segment was merged with NGS). During that
review, Anthem Maine identified Medicare segment assets of $4,472,179; however, we
determined that the Medicare segment pension assets were $3,988,364, a difference of $483,815.
Therefore, we have included an adjustment to the NGS Medicare segment pension assets at
January 1, 2006, in the amount of $483,815 to account for the variance identified in the
segmentation audit of the Anthem Maine Medicare segment. 2



2
 Although WellPoint officially consolidated its Government contracting segments into one subsidiary on
November 17, 2006, the documentation provided by WellPoint indicated that the pension assets relating to Anthem
Maine, Anthem New Hampshire, and AdminaStar were consolidated as of January 1, 2006.

National Government Services, Inc., Pension Segmentation (A-07-13-00408)                                          3
ANTHEM HEALTH PLANS OF NEW HAMPSHIRE, INC., ASSET VARIANCE

We conducted a separate review of the Anthem New Hampshire Medicare segment
(A-07-13-00406), which updated the Anthem New Hampshire Medicare segment pension assets
as of January 1, 2006 (the date on which the Anthem New Hampshire Medicare segment was
merged with NGS). During that review, Anthem New Hampshire identified Medicare segment
assets of $276,718; however, we determined that the Medicare segment pension assets were
$301,081, a difference of $24,363. Therefore, we have included an adjustment to the NGS
Medicare segment pension assets as of January 1, 2006, in the amount of $24,363 to account for
the variance identified in the segmentation audit.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

The Medicare contract requires that Medicare contractors update the Medicare segment pension
assets yearly in accordance with the CAS. The CAS requires that the asset base be adjusted by
contributions, permitted unfunded accruals, income, benefit payments, and expenses.

For details on the Federal requirements and the Medicare contract, see Appendix C.

The following are our findings regarding the update of the NGS Medicare segment pension
assets from January 1, 2003, to January 1, 2010.

Contributions and Transferred Prepayment Credits Understated

The audited contributions and transferred prepayment credits 3 are based on the assignable
pension costs. 4 In compliance with the CAS, we applied prepayment credits first to current-year
assignable pension costs (because the credits were available at the beginning of the year) and
then updated any remaining credits with interest to the next measurement (valuation) date. We
then allocated contributions to assigned pension costs, as needed, as of the date of deposit. For
details on these Federal requirements, see Appendix C.

NGS understated contributions and transferred prepayment credits by $1,163,537 for the
Medicare segment. The understatement occurred primarily because NGS incorrectly calculated
the assignable pension costs upon which the contributions and prepayment credits were based.
As a result, NGS understated the Medicare segment pension assets by $1,163,537.

Net Transfers Understated

NGS understated net transfers out of the Medicare segment by $396,267. The understatement
occurred primarily because NGS incorrectly identified participants who transferred out of that
segment as required by CAS 413.50(c)(8). More specifically, the inactive participants were not


3
  A prepayment credit is the amount funded in excess of the pension costs assigned to a cost accounting period that
is carried forward for future recognition.

4
    These are assigned to a specific cost accounting period.

National Government Services, Inc., Pension Segmentation (A-07-13-00408)                                              4
transferred out of the Medicare segment in 2006. This understatement of the net transfer
adjustment resulted in an overstatement of the Medicare segment pension assets by $396,267.

Benefit Payments Understated

NGS understated benefit payments for the Medicare segment by $32,214. The understatement
occurred because NGS incorrectly recorded a benefit payment in 2003. This understatement of
benefit payments resulted in an overstatement of the NGS Medicare segment pension assets by
$32,214.

Earnings, Net Expenses Understated

NGS understated investment earnings, less administrative expenses, by $884,404 for the
Medicare segment. This understatement occurred primarily because the 2003 weighted average
value 5 (WAV) calculation incorrectly included the assets related to the Anthem Health Plans of
Virginia, Inc., Retirement Program (Anthem Southeast) merger that occurred on December 31,
2003. In addition, NGS used incorrect contributions and transferred prepayment credits, net
transfers, and benefit payments (all discussed above) to develop the Medicare segment pension
asset base. In our calculation of the Medicare segment pension assets as of January 1, 2010, we
allocated earnings, net expenses based on the applicable CAS requirements. For details on these
Federal requirements, see Appendix C.

                                          RECOMMENDATIONS

We recommend that NGS:

     •   increase the Medicare segment pension assets as of January 1, 2010, by $1,160,008 and
         recognize $29,542,575 as the Medicare segment pension assets and

     •   establish controls to ensure compliance with Federal regulations and the Medicare
         contracts’ pension segmentation requirements when allocating contributions and
         transferred prepayment credits, benefit payments, participant transfers, and investment
         earnings and expenses.

                                          AUDITEE COMMENTS

In written comments on our draft report, NGS concurred with our findings and recommendations
and said that it would make the appropriate adjustments to the Medicare segment pension assets
as of January 1, 2010. NGS also said that it would evaluate its current procedures to ensure
compliance with Federal regulations. NGS’s comments are included in their entirety as
Appendix D.




5
 The weighted average market value of assets is based on the timing of the contributions, other transactions, benefit
payments, and administrative expenses.

National Government Services, Inc., Pension Segmentation (A-07-13-00408)                                            5
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed NGS’s implementation of the prior audit recommendation; identification of its
Medicare segment; and update of the Medicare segment assets from January 1, 2003, to
January 1, 2010.

Achieving our objective did not require us to review NGS’s overall internal control structure.
We reviewed controls relating to the identification of the NGS Medicare segment and the update
of the NGS Medicare segment’s assets to ensure adherence to the Medicare contracts, CAS 412,
and CAS 413.

We conducted our audit work in November and December 2012.

METHODOLOGY

To accomplish our objectives, we took the following steps:

    •     We reviewed the portions of the FAR, CAS, and the Medicare contracts applicable to
          this audit.

    •     We reviewed the annual actuarial valuation reports prepared by NGS’s actuarial
          consulting firms, which included the pension plan’s assets, liabilities, normal costs,
          contributions, benefit payments, investment earnings, and administrative expenses. We
          used this information to calculate the Medicare segment pension assets.

    •     We obtained and reviewed the pension plan documents and Department of
          Labor/Internal Revenue Service Forms 5500 used in calculating the NGS Medicare
          segment assets.

    •     We interviewed NGS staff responsible for identifying the Medicare segment to
          determine whether the segment was properly identified in accordance with the Medicare
          contracts.

    •     We reviewed NGS’s accounting records to verify the segment identification and benefit
          payments made to the Medicare segment.

    •     We reviewed the prior segmentation audit of Anthem (A-07-04-00181) to determine the
          beginning market value of assets.

    •     We provided the CMS Office of the Actuary with the actuarial information necessary
          for it to calculate the NGS Medicare segment pension assets from January 1, 2003, to
          January 1, 2010.

    •     We reviewed the CMS actuaries’ methodology and calculations.

National Government Services, Inc., Pension Segmentation (A-07-13-00408)                         6
We performed this review in conjunction with the following audits and used the information
obtained during these audits during this review:

    •   Blue Cross Blue Shield of Georgia Overstated Its Medicare Segment Pension Assets and
        Understated Medicare’s Share of the Excess Liabilities as of May 31, 2009
        (A-07-12-00397),

    •   Blue Cross Blue Shield of Georgia Did Not Claim Some Allowable Medicare Pension
        Costs for Fiscal Years 2006 Through 2009 (A-07-12-00398),

    •   Anthem Health Plans of Maine, Inc., Overstated Its Medicare Segment Pension Assets as
        of January 1, 2006 (A-07-13-00404),

    •   Anthem Health Plans of Maine, Inc., Did Not Claim Some Allowable Medicare Pension
        Costs for Fiscal Years 2003 Through 2005 (A-07-13-00405),

    •   Anthem Health Plans of New Hampshire, Inc., Understated Its Medicare Segment
        Pension Assets as of January 1, 2006 (A-07-13-00406),

    •   Anthem Health Plans of New Hampshire, Inc., Did Not Claim Some Allowable Medicare
        Pension Costs for Fiscal Years 2003 Through 2005 (A-07-13-00407), and

    •   National Government Services, Inc., Claimed Some Unallowable Medicare Pension
        Costs for Fiscal Years 2003 Through 2006 (A-07-13-00409).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




National Government Services, Inc., Pension Segmentation (A-07-13-00408)                       7
                                                      APPENDIX B: STATEMENT OF MARKET VALUE OF PENSION ASSETS
                                                           FOR THE WELLPOINT CASH BALANCE PENSION PLAN
                                                           FOR THE PERIOD JANUARY 1, 2003, TO JANUARY 1, 2010

                                                                                                Anthem New
                                                                                                 Hampshire        NGS          Anthem Maine      BCBSGA
                 Description                         Total Company         Other Segments         Segment       Segment          Segment         Segment

      Assets January 1, 2003                 1/           $615,266,988          $587,811,989       $1,066,467   $21,594,429        $4,794,103

      Prepayment credits                     2/                     0             (4,564,241)        243,725      3,704,635           615,881
      Contributions                          3/            65,000,000             65,000,000               0              0                 0
      Other transactions                     4/           187,077,099            187,077,099               0              0                 0
      Earnings                               5/           130,802,578            124,178,263         223,306      5,256,726         1,144,283
      Benefit payments                       6/           (61,198,247)           (58,130,416)       (565,058)    (2,214,866)         (287,907)
      Administrative expenses                                       0                      0               0              0                 0
      Transfers                              7/                     0              1,757,989              32     (1,568,631)         (189,390)

      Assets January 1, 2004                             $936,948,418           $903,130,683       $968,472     $26,772,293        $6,076,970              $0

      Prepayment credits                                             0            (4,466,299)        236,302      3,600,628           629,369
      Contributions                                         10,000,000            10,000,000               0              0                 0
      Other transactions                                             0                     0               0              0                 0
      Earnings                                              96,892,114            93,048,973         121,928      3,074,529           646,684
      Benefit payments                                     (71,819,385)          (66,927,468)       (135,543)    (3,404,623)       (1,351,751)
      Administrative expenses                                        0                     0               0              0                 0
      Transfers                                                      0             2,384,375        (186,544)      (954,014)       (1,243,817)

      Assets January 1, 2005                             $972,021,147           $937,170,264      $1,004,615    $29,088,813        $4,757,455              $0

      Prepayment credits                                             0            (4,154,400)        206,990      3,276,707           670,703
      Contributions                                         46,500,000            46,500,000               0              0                 0
      Other transactions                     8/                      0                     0        (301,081)     4,289,445        (3,988,364)
      Earnings                                              64,686,123            62,144,538          50,476      2,161,997           329,112
      Benefit payments                                     (90,620,644)          (86,346,471)       (958,801)    (2,007,245)       (1,308,127)
      Administrative expenses                                        0                     0               0              0                 0
      Transfers                                                      0             1,434,727          (2,199)      (971,749)         (460,779)

      Assets January 1, 2006                             $992,586,626           $956,748,658              $0    $35,837,968               $0               $0

National Government Services, Inc., Pension Segmentation (A-07-13-00408)                                                                                    8
                                                                                                  NGS          BCBSGA
                 Description                         Total Company         Other Segments       Segment        Segment

      Assets January 1, 2006                             $992,586,626           $956,748,658    $35,837,968              $0

      Prepayment credits                                            0             (2,115,825)     2,115,825              0
      Contributions                                        97,500,000             97,500,000              0              0
      Other transactions                     9/           863,505,475            825,430,076     35,252,136      2,823,263
      Earnings                                            175,751,241            170,316,450      5,234,629        200,162
      Benefit payments                                   (128,402,135)          (121,303,236)    (6,741,900)      (356,999)
      Administrative expenses                                       0                      0              0              0
      Transfers                                                     0              2,279,142     (2,141,639)      (137,503)

      Assets January 1, 2007                           $2,000,941,207         $1,928,855,265    $69,557,019     $2,528,923

      Prepayment credits                                            0             (3,144,028)     3,144,028              0
      Contributions                                           326,001                326,001              0              0
      Other transactions                                            0                      0              0              0
      Earnings                                            157,298,856            151,391,866      5,699,406        207,584
      Benefit payments                                   (171,387,896)          (164,781,183)    (6,604,168)        (2,545)
      Administrative expenses                                       0                      0              0              0
      Transfers                                                     0              6,362,462     (5,796,394)      (566,068)

      Assets January 1, 2008                           $1,987,178,168         $1,919,010,383    $65,999,891     $2,167,894

      Prepayment credits                                            0             (3,122,135)     3,104,584         17,551
      Contributions                                        58,000,000             58,000,000              0              0
      Other transactions                                            0                      0              0              0
      Earnings                                           (468,249,433)          (452,004,182)   (15,716,563)      (528,688)
      Benefit payments                                   (119,542,179)          (110,699,660)    (8,824,001)       (18,518)
      Administrative expenses              10/             (1,160,212)            (1,119,960)       (38,942)        (1,310)
      Transfers                                                     0             13,046,925    (13,343,911)       296,986

      Assets January 1, 2009                           $1,456,226,344         $1,423,111,371    $31,181,058     $1,933,915




National Government Services, Inc., Pension Segmentation (A-07-13-00408)                                                      9
                                                                                                        NGS               BCBSGA
                 Description                         Total Company         Other Segments             Segment             Segment

      Assets January 1, 2009                           $1,456,226,344         $1,423,111,371         $31,181,058            $1,933,915

      Prepayment credits                                            0             (4,552,169)           4,528,167               24,002
      Contributions                                        33,000,000             33,000,000                    0                    0
      Other transactions                   11/             19,401,325             19,401,325                    0                    0
      Earnings                                            256,877,991            250,840,139            6,010,310               27,542
      Benefit payments                                   (133,000,077)          (126,065,157)          (6,381,960)            (552,960)
      Administrative expenses                              (3,346,324)            (3,267,669)             (78,296)                (359)
      Transfers                                                     0              6,077,288           (5,716,704)            (360,584)

      Assets January 1, 2010                           $1,629,159,259         $1,598,545,128         $29,542,575            $1,071,556
      Per WellPoint                        12/          1,629,159,259          1,599,692,059          28,382,567             1,084,633
      Asset variance                       13/                      0              1,146,931          (1,160,008)               13,077


ENDNOTES

  1/ We determined the Anthem Maine and NGS Medicare segment pension assets as of January 1, 2003, based on our prior segmentation audit of Anthem (A-07-04-00181). We
     determined the Anthem New Hampshire Medicare segment pension assets as of December 31, 2002, based on our prior segmentation audit of New Hampshire-Vermont (A-07-
     08-00269). The New Hampshire-Vermont Health Service pension plan merged into the WellPoint Cash Balance Pension Plan effective December 31, 2002. The amounts
     shown for the Other segment represent the difference between the Total Company and the Medicare segment. All pension assets are shown at market value.

  2/ Transferred prepayment credits represent funds available to satisfy future funding requirements and are applied to future funding requirements before current year contributions
     in order to avoid incurring unallowable interest. Prepayment credits are transferred to the Medicare segment as needed to cover funding requirements.

  3/ We obtained Total Company contribution amounts from the actuarial valuation reports and Department of Labor/Internal Revenue Service Forms 5500. We allocated Total
     Company contributions to the Medicare segment based on the ratio of the Medicare segment funding target divided by the Total Company funding target. Contributions in
     excess of the funding targets were treated as prepayment credits and accounted for in the Other segment until needed to fund pension costs in the future.

  4/ The Other transactions represent the merger of the Anthem Health Plans of Virginia, Inc. Retirement Program (Anthem Southeast) into the WellPoint Cash Balance Pension
     Plan on December 31, 2003. We obtained the Anthem Southeast pension asset amount as of December 31, 2003, from WellPoint’s 2004 actuarial valuation report. These
     Other transactions did not impact the Medicare segment pension assets.




National Government Services, Inc., Pension Segmentation (A-07-13-00408)                                                                                                         10
  5/ We obtained net investment earnings from the actuarial valuation reports. We allocated net investment earnings based on the ratio of the segments’ WAV of assets to Total
     Company WAV of assets as required by the CAS.

  6/ We based the Medicare segment’s benefit payments on actual payments to Medicare retirees. We obtained the benefit payments from documents provided by WellPoint.

  7/ We identified participant transfers between segments by comparing valuation data files provided by WellPoint. Asset transfers were equal to the actuarial liability determined
     under the accrued benefit cost method in accordance with the CAS.

  8/ The Other transactions for 2005 represent the merger of the Anthem Maine and Anthem New Hampshire segments into NGS. Effective November 17, 2006, Adminastar
     Federal, Inc., was renamed NGS.

  9/ The Other transactions for 2006 represent the mergers of WellPoint Health Networks, Inc., Pension Accumulation Plan (Prior PAP) and Empire Blue Cross and Blue Shield
     Cash Balance Pension Plan (Prior Empire) into the WellPoint Cash Balance Pension Plan. The Prior PAP plan merged into the WellPoint Cash Balance Pension Plan on June
     30, 2006. We determined the BCBSGA Medicare segment pension assets as of June 30, 2006, based on our prior segmentation audit of BCBSGA (A-07-10-00344). The Prior
     Empire plan merged into the WellPoint Cash Balance Pension Plan on December 31, 2006. We determined the Empire Medicare segment pension assets as of December 31,
     2006, based on our prior segmentation audit of Empire (A-07-07-00253). The amounts shown for the Other segment represent the difference between the Total Company and
     the Medicare segment. All pension assets are shown at market value.

 10/ We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

 11/ The Other transactions for 2009 represent the acquisition of DeCare Dental, LLC in April 2009. Effective December 31, 2009, the DeCare Dental Pension Plan merged into
     the WellPoint Cash Balance Pension Plan. We obtained the DeCare pension asset amount as of April 2009 from WellPoint’s 2010 actuarial valuation report. These Other
     transactions did not impact the Medicare segment pension assets.

 12/ We obtained total asset amounts from documents prepared by WellPoint’s actuarial consulting firm.

 13/ The asset variance represents the difference between our calculation of Medicare segment pension assets and WellPoint’s calculation of the Medicare segment pension assets.




National Government Services, Inc., Pension Segmentation (A-07-13-00408)                                                                                                         11
                APPENDIX C: FEDERAL REQUIREMENTS RELATED TO
                            PENSION SEGMENTATION

FEDERAL REGULATIONS

Federal regulations (CAS 412.50(a)(4)) require that contributions in excess of the pension cost
assigned to the period be recognized as prepayment credits and accumulated at the assumed
valuation interest rate until applied to future period costs. Prepayment credits that have not been
applied to fund pension costs are excluded from the value of assets used to compute pension
costs.

Federal regulations (CAS 413.50(c)(7)) require that the asset base be adjusted by contributions,
permitted unfunded accruals, income, benefit payments, and expenses. For plan years beginning
after March 30, 1995, the CAS requires investment income and expenses to be allocated among
segments based on the ratio of the segment’s WAV of assets to Total Company WAV of assets.

Federal regulations (CAS 413.50(c)(8)) require an adjustment to be made for transfers
(participants who enter or leave the segment) if the transfers materially affect the segment’s ratio
of pension plan assets to actuarial accrued liabilities.

MEDICARE CONTRACTS

The Medicare contracts identify a Medicare segment as:

        … any organizational component of the contractor, such as a division,
        department, or other similar subdivision, having a significant degree of
        responsibility and accountability for the Medicare contract/agreement, in which:

            1. The majority of the salary dollars is allocated to the Medicare
               agreement/contract; or,

            2. Less than a majority of the salary dollars are charged to the Medicare
               agreement/contract, and these salary dollars represent 40% or more of the
               total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).”




National Government Services, Inc., Pension Segmentation (A-07-13-00408)                          12
                                     APPENDIX D: AUDITEE COMMENTS 




        4if'~National c~vernm;nt
           )Ill{           serv1ces~
                                                                                                         MEDICARE
              8115 Knue Road 

              Indianapolis, IN 46250 


              1/W>/W.wellpoint.com/ngs



              September 20, 2013

              Mr. PatrickJ. Cogley 

              Regional Inspector General for Audit Services 

              Office of Audit Services, Region VII 

              601 East 12•h Street, Room 0429 

              Kansas City, Missouri 64106 


              Reference: Report Number A-07-13-00408

              Dear Mr. Cogley:

              We have received the draft audit report from the Inspector General entitled "National
              Government Services, Inc., Understated Its Medicare Segment Pension Assets as of January 1,
              2010" and thank you for the opportunity to respond.


              National Government Services, Inc. (NGS) concurs with the finding and recommendation
              outlined in the report and will make the appropriate adjustments to Medicare segment pension
              assets as of January 1, 2010. In addition, NGS will evaluate its current procedures in place to
              ensure asset development complies with appropriate federal regulations.

              We appreciate the opportunity to respond to this draft report. If you have any further 

              questions, I can be reached at 414-459-5606 or via email at todd.reiger@wellpoint.com. 


              Sincerely,
                                         Digitally signed by
                                         todd.reiger@w ellpoint.com
                                         DN: cn::::todd.reiger@wellpoint.com
                                         Date: 2013.09.20 14:36:13 -04'00'

              Todd W. Reiger, CPA
              Medicare Chief Financial Officer
              National Government Services, Inc.

              CC: Michael Kapp- NGS                      Renee Sherrill - NGS     Jenenne Tambke- OIG
                 Dave Marshall ­ NGS                     Jim Elmore ­ NGS         Jeff Wilson- OIG
                 Jeff Hannah ­ NGS                       Joanne lmel- WellPoint
                 Jim Maguire- NGS                        Marilyn Bryan- CMS




National Government Services, Inc., Pension Segmentation (A-07-13-00408)                                            13
